Roderick and Solange MacArthur Justice Center
777 6th Street NW, 11th Floor
Washington, DC 20001

Amir H. Ali
Deputy Director
Supreme Court & Appellate Program

macarthurjusticecenter.org

amir.ali@macarthurjustice.org
O 202 869 3434
F 202 869 3435

August 17, 2020
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Jordan, et al. v. Ga. Dep’t of Corr., Case No. 19-1361
Dear Mr. Harris,
Respondent filed its brief in opposition to certiorari in the above-captioned case
on August 11, 2020. The first distribution date for paid petitions following the 14-day
grace-period is August 26, 2020.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 14 days, until the Court’s
September 9, 2020 distribution date. Petitioner requests this additional time to file a
certiorari reply based on substantial disturbances caused by the COVID-19 outbreak.
This request will not affect the Court’s conference date; the case will remain
scheduled for the September 29, 2020, conference.
Respondent does not oppose this request.
Very truly yours,

Amir H. Ali
Counsel for Petitioner

cc: Andrew Alan Pinson, Counsel for Respondent

